  DEPARTMENT OF HOMELAND SECURITY

  Ofﬁce of Inspector General


The Federal Emergency Management Agency’s 

     Individual and Family Grant Program 

              Management at the 

         World Trade Center Disaster




               Ofﬁce of Audits


OIG-04-49             September 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                            Contents



Introduction.......................................................................................................................................... 3


     Results in Brief .............................................................................................................................. 3


     Background .................................................................................................................................... 4


     Estimate of Abuse .......................................................................................................................... 5


     Eligibility Requirements were Consistent with Regulations But Increased Risk of Abuse .......... 5


     Deceptive Advertising Exacerbates Risk of Abuse ........................................................................ 7


     Actions Taken to Combat Abuse ................................................................................................... 8


     Conclusion and Recommendation ................................................................................................ 8


Appendices

     Appendix A:             Congressional Request Letter. ………………………………………………… 10
     Appendix B:             Associated Press Article ..................................................................................... 12

     Appendix C:             Purpose, Scope, and Methodology ..................................................................... 14

     Appendix D:             Recommendation................................................................................................ 15

     Appendix E:             Management Comments..................................................................................... 16

     Appendix F:             OIG Analysis of Management’s Comments ....................................................... 27

     Appendix G:             Major Contributors to This Report..…..…………………….………………… 28

     Appendix H:             Report Distribution …………………………………………………………… 29



Abbreviations

     OIG              Ofﬁce of Inspector General
     IFG              Individual and Family Grant
     WTC              World Trade Center disaster
     FEMA             Federal Emergency Management Agency
     SBA              Small Business Administration
     EPA              Environmental Protection Agency
     EPR              Emergency Preparedness and Response

               The Federal Emergency Management Agency’s Individual and Family Grant Program                                                        Page 1

                               Management at the World Trade Center Disaster

Page 2   The Federal Emergency Management Agency’s Individual and Family Grant Program
                         Management at the World Trade Center Disaster
OIG

Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                        The Ofﬁce of Inspector General (OIG), at the request of Representatives Carolyn
                        B. Maloney and Jose Serrano, audited the management of the Individual and
                        Family Grant (IFG) program after the World Trade Center disaster (WTC) to
                        determine whether actions by the Federal Emergency Management Agency
                        (FEMA) and the state of New York contributed to reported fraud and abuse in the
                        program. The Associated Press, in an article dated February 20, 2003, stated that
                        the program is “rife with fraud and abuse” and that 90% of the applications for air
                        quality items were ﬁled by people not suffering from the effects of contaminated
                        air. A copy of the request letter and the Associated Press article are included as
                        Appendixes A and B, respectively.



    Results in Brief

                        FEMA and state ofﬁcials took several actions related to air quality items that
                        while, consistent with FEMA regulations, reduced managerial controls and
                        increased the risk of abuse. Some actions, such as eliminating home inspections
                        for air conditioners, were taken for valid practical reasons; other actions were
                        taken to reduce paperwork and expedite program delivery. In addition, FEMA
                        and the state authorized advanced payments to applicants who were ﬁnancially
                        unable to purchase air quality items. Although FEMA and state ofﬁcials kept
                        residents informed through press releases, these decisions, exacerbated by
                        misleading advertising campaigns by companies selling air quality items, greatly
                        increased the number of apparently fraudulent applications.

                        Once the problems were identiﬁed, FEMA and the state took action to address
                        suspected fraudulent applications. FEMA program ofﬁcials selected two
                        samples of applicants to conduct home inspections: one of applicants who




           The Federal Emergency Management Agency’s Individual and Family Grant Program             Page 3
                           Management at the World Trade Center Disaster
             applied for assistance to buy window air conditioners, and one to verify whether
             cash advances were applied for properly. While the claim that ninety percent
             of applicants for air quality items were ﬁled by people not suffering from the
             effects of contaminated air was probably overstated, the number of questionable
             applications based on the sample was high, as much as 62 percent for those
             applying for air conditioners. FEMA OIG investigated a number of alleged
             instances of fraud and referred several for prosecution. While no abuse should be
             tolerated, OIG found no evidence that problems within the IFG program caused
             any eligible New York citizens not to receive needed air quality items.

             OIG recommended that, when faced with a similar situation in the future,
             FEMA require the state to sample individual applicants on a continuous basis to
             verify their eligibility, and lessen the potential for programmatic abuse. FEMA
             concurred with this recommendation.



Background
             The Robert T. Stafford Disaster Relief and Emergency Assistance Act, Public
             Law 93-288, as amended (Stafford Act) was enacted to support State and local
             governments and their citizens when disasters overwhelm them. The Stafford Act
             authorized FEMA to administer ﬁve Individual Assistance programs that provided
             aid to individuals, families, and business owners, in response to presidential
             disaster declarations. One of the those programs, the IFG program, was created
             to meet disaster-related necessary expenses or serious needs that could not be met
             through other Stafford Act programs or through other means, such as insurance,
             other Federal assistance, or voluntary agency programs. Eligible expense
             included real and personal property, medical and dental, funeral, transportation,
             and others speciﬁcally requested by the state. Disaster victims were generally
             required to apply for, and be denied, SBA disaster loans before being considered
             for the IFG program.

             New York State, as grantee, administered and implemented the IFG program.
             FEMA worked closely with the state and provided advice, accepted applications,
             and assisted with eligibility determinations.




Page 4         The Federal Emergency Management Agency’s Individual and Family Grant Program
                               Management at the World Trade Center Disaster
Estimate of Abuse
                    The Associated Press reported that people who did not suffer from the effects of
                    contaminated air ﬁled 90 percent of the applications for reimbursements for air
                    quality items. The source of this statistic was an estimate by the FEMA disaster
                    recovery ofﬁcer for the WTC disaster. The estimate was based on an assumption
                    that, of the 225,000 applicants for air quality items, only the 25,000 who
                    lived in lower Manhattan and were eligible to participate in an Environmental
                    Protection Agency (EPA) home cleaning program suffered from contaminated
                    air. Consequently, about 90 percent of the applications were estimated to be ﬁled
                    by people not suffering from the effects of contaminated air. However, although
                    it was reasonable to assume that the participants in the EPA’s home cleaning
                    program suffered from contaminated air, it was not reasonable to assume that they
                    were the only ones who were affected by contaminated air. IFG ofﬁcials believed
                    that residents in other parts of the city also may have suffered from contaminated
                    air and would be eligible for air quality items.

                    The FEMA disaster recovery ofﬁcer said that he disclosed the estimate to get the
                    attention of applicants who had applied for, but not yet received, assistance. The
                    intent of the disclosure was to encourage applicants who were not suffering from
                    or affected by contaminated air to voluntarily withdraw their applications. He
                    said that, after publication of the article, several thousand people withdrew their
                    applications.



Eligibility Requirements were Consistent with Regulations, But Increased
Risk of Abuse
                    FEMA and state ofﬁcials took several actions related to air quality items that,
                    while consistent with FEMA regulations, reduced managerial controls and
                    increased the risk of abuse. Although FEMA and state ofﬁcials kept residents
                    informed through press releases, these decisions, exacerbated by misleading
                    advertising campaigns by companies selling air quality items, greatly increased
                    the number of apparently fraudulent applications.

                    The IFG program, managed by the state with assistance from FEMA, was
                    established to help disaster victims meet disaster related necessary expenses or
                    serious needs. It is not intended to indemnify disaster losses or to permit purchase
                    of items that are non-essential. Eligible expenses include those for real and



       The Federal Emergency Management Agency’s Individual and Family Grant Program              Page 5
                       Management at the World Trade Center Disaster
         personal property, medical and dental expenses, funeral expenses, transportation
         needs, and other expenses speciﬁcally requested by the state. FEMA and the state
         generally rely on several managerial control mechanisms to verify that applicants
         meet eligibility requirements.

         First, FEMA conducts inspections of applicants’ homes to verify that they suffered
         disaster damage, normally using contract inspectors brought in immediately after
         the disaster. Next, because the delivery sequence for disaster assistance places the
         IFG program after assistance from SBA disaster loans, FEMA generally requires
         that IFG applicants apply for, and be denied, SBA disaster loans before being
         considered for the IFG program. This helps establish that assistance for a serious
         need cannot be obtained by other means. Finally, receipts or other expense
         records can be required to verify that expenditures were used to meet essential
         needs. This is often done for medical, funeral, and similar expenses.

         On October 18, 2001, air puriﬁers, air ﬁlters, and vacuum cleaners with high
         efﬁciency particulate air (HEPA) ﬁlters, were added to the eligible items list.
         Eligibility for these items was based on applicants’ suffering from contaminated
         air, a difﬁcult condition to verify. Also, the items were listed in an “other”
         category, which exempted them from the SBA loan application requirement under
         FEMA’s regulations.

         On March 22, 2002, FEMA and the state added window air conditioners to the
         list of items eligible for IFG program assistance. Eligibility was dependent on
         applicants’ having owned a window air conditioner that was damaged during
         the disaster. Window air conditioners normally would be inspected to verify
         damage before being approved for repair or replacement. However, at the time
         air conditioners were added to the list of eligible property, home inspections had
         been completed, and FEMA decided that it would not be cost effective to bring
         the inspectors back to verify damage to a single property item, i.e., the window
         air conditioner. This was a reasonable decision because there were more than
         200,000 IFG applications. Instead, the state implemented a self-certiﬁcation
         process and placed window air conditioners in the “other” category, so applicants
         were not required to apply for and be denied SBA disaster loans before receiving
         IFG assistance.

         On May 1, 2002, FEMA and the state authorized advance payments to applicants
         who were ﬁnancially unable to purchase air quality items. Rather than having
         to provide receipts for the items prior to grant approval as normally required or
         proving ﬁnancial need, applicants were permitted to certify that they were unable



Page 6     The Federal Emergency Management Agency’s Individual and Family Grant Program
                           Management at the World Trade Center Disaster
                             to pay for the items and were asked to provide receipts after they purchased the
                             items.

                             FEMA and state ofﬁcials kept residents informed about eligibility requirements
                             by periodically issuing press releases that explained what assistance was available
                             and how to apply for it. The OIG found no indications that eligible recipients
                             did not receive assistance. However, many people who received assistance may
                             not have been entitled to it, because reduced managerial controls over air quality
                             items increased opportunities for fraud and abuse.

                             In addition, the original geographic area of eligibility was very broad. From
                             September 2001 to May 2002, people living in ﬁfteen New York counties were
                             eligible to apply for assistance under the IFG program. This large geographic
                             boundary created an extremely large number of potential applicants. In June
                             2002, however, the state limited assistance for air quality items to New York City,
                             i.e., counties of New York, Bronx, Kings, Queens and Richmond. Although it
                             was understood that the primary area affected was lower Manhattan, IFG program
                             ofﬁcials said that, in their judgment, residents in any of the ﬁve counties might
                             have been in need of air quality items.

Deceptive Advertising Exacerbates Risk of Abuse
                             In June 2002, applications for air quality items rose sharply and continued to
                             increase in July and August. Before then, the number of applications had been
                             dropping each month. FEMA believes that the increases may have been due to
                             deceptive advertising by companies selling air quality items and offering “free
                             air conditioners”. These companies distributed ﬂiers to encourage the public to
                             buy their products and get reimbursed by FEMA. In the same timeframe, EPA
                             announced that air quality in New York City was poor. An additional factor may
                             have been the closing of non-proﬁt programs.1 FEMA ofﬁcials said that, due to
                             the large increase in applications, they became concerned about possible abuse.
                             In response to this situation, FEMA implemented a sampling program to verify
                             applicant eligibility and to identify abusers.




1
    FEMA’s Delivery of Individual Assistance Programs: New York – September 11, 2001; FEMA OIG Inspections Division, December 2000.




              The Federal Emergency Management Agency’s Individual and Family Grant Program                                Page 7
                              Management at the World Trade Center Disaster
Actions Taken to Combat Abuse
              Federal regulation 44 CFR 206.131 provides for sampling applicants to verify
              program effectiveness. FEMA program ofﬁcials selected two random samples:
              one of applicants who repaired or replaced air conditioners, and one of applicants
              who received advances for air quality items. Although the samples were not
              designed to be statistically valid, the results suggest that a large number of
              applicants were not suffering from the effects of contaminated air.

              In January 2003, FEMA program ofﬁcials selected a sample of 4,435 people who
              applied for assistance to buy window air conditioners and visited their homes
              to verify that they had window air conditioners before the disaster occurred.
              FEMA representatives inspected damaged air conditioners or, when damaged
              air conditioners had been disposed of, inspected indentations left in windows by
              the air conditioners. The home inspections identiﬁed 1,704 applicants who had
              evidence of the prior existence of a window air conditioner, and 2,731 applicants,
              or 62%, who did not and therefore were probably ineligible for assistance.

              The second sample of 5,602 applications was selected in March 2003 to verify
              the proper use of $5.8 million in advances for air quality items. Applicants who
              received advances were required to submit receipts to the state within 30 days
              after receiving the funds, but program ofﬁcials said that none of the applicants
              included in the sample complied with this requirement. As of July 22, 2003,
              FEMA program ofﬁcials had completed 5,029 home inspections and determined
              that 3,347 applicants had purchased the air quality items. FEMA referred the
              1,682 applicants, or 33%, who had not purchased the air quality items to the state
              for collection.

              The sampling was effective in identifying ineligible applicants and preventing
              many from receiving grants. Although only a few cases were accepted for
              prosecution due to the small amount of money involved, there was some deterrent
              value in publicizing those prosecutions. Finally, OIG investigated complaints
              against 16 air quality products companies for using unethical sales tactics and
              referred them to the New York State Attorney General’s ofﬁce.

Conclusion and Recommendation
              The unique circumstances surrounding a disaster often make such measures as
              advancing payments to applicants and exempting items from home inspection
              or SBA loan application requirements, which are within FEMA’s authority,
              appropriate. However, it is important to recognize that these measures

Page 8          The Federal Emergency Management Agency’s Individual and Family Grant Program
                                Management at the World Trade Center Disaster
             signiﬁcantly increase the risk of abuse. When eligibility is not veriﬁed by a
             FEMA managed home inspection or SBA’s disaster loan review process, the state
             should take extra measures, such as sampling applicants, to ensure that applicants
             are eligible for the IFG program. Such procedures can identify abuse early in the
             process, so timely action can be taken to prosecute abusers, and deter others from
             abuse.
             The OIG recommends that the Director, Recovery Division, Emergency
             Preparedness and Response Directorate, when faced with a similar situation in the
             future, require the state to randomly select individual applicants on a continuous
             basis, and take whatever action is appropriate to verify their eligibility.




The Federal Emergency Management Agency’s Individual and Family Grant Program            Page 9
                Management at the World Trade Center Disaster
Appendix A
Congressional Request Letter




Page 10                 The Federal Emergency Management Agency’s Individual and Family Grant Program
                                        Management at the World Trade Center Disaster
                                                                       Appendix A
                                                                       Congressional Request Letter




1
    We received differing opinions about the effective date for the implementation of the Act. The date stated here was derived from language


                The Federal Emergency Management Agency’s Individual and Family Grant Program                                      Page 11
                                Management at the World Trade Center Disaster
Appendix B
Associated Press Article



                                                                                                     P Page 1 of 2

9/11 Air-Quality Aid Program Troubled (AP)
Associated Press
By Sara Kugler
February 20, 2003
      NEW YORK - A $100 million federal program to reimburse New Yorkers for air conditioners, ﬁlters,
vacuums and other air-purifying tools after the World Trade Center collapse is rife with fraud and abuse,
government ofﬁcials say.
      As many as 90 percent of the more than 219,000 applications for reimbursement were ﬁled by people not
suffering from the effects of contaminated air, according to estimates from federal ofﬁcials.
      They say fraud has taken several forms: Some people have manipulated the program to score a free air
conditioner, while con artists have posed as federal employees and sold air-purifying items to residents.
      About $45.8 million has been paid out so far, and while many applications are legitimate, ofﬁcials said
millions have been paid to people scamming the system. The government is so concerned that it is sending a
dozen teams of inspectors daily to applicants’ homes to verify claims.
      The government can turn cases over to prosecutors — though none have brought charges — or they can try
to reclaim the money.
      The grants were set up by the Federal Emergency Management Agency to reimburse residents in all ﬁve
boroughs for the purchase of air quality items, up to about $1,500 per applicant.
      Unlike other aid programs created speciﬁcally to address the Sept. 11 attack, the reimbursements
came from an existing program. The program is traditionally used to help people with costs not covered
by other assistance programs, but FEMA ofﬁcials said they have never encountered this level of misuse in
prior disasters.
      The size and extent of the program have proven to be among its problems.
      While many trade center grants were limited to residents of lower Manhattan, this program was open to all
New York City residents.
      “We were trying to do the right thing. Unfortunately people took advantage of that, so now we have
people way out in Queens or upper Manhattan where there was no potential for air quality impacts,” said
Brad Gair, FEMA’s trade center federal recovery ofﬁcer.
      As word spread about the ways to cheat the system, Gair said, a program that was originally budgeted at $15
million — and initially had trouble attracting applicants — turned into a $100 million monster.
      “We know we’ve come across people who are not telling the truth,” said Jack Casale, a FEMA
investigator, during a day of visits to homes in Queens, more than 10 miles east of the trade center.
      Scientists and federal environmental ofﬁcials are still studying the effect of trade center dust and the path it
took, but experts agree that the cloud hovered over lower Manhattan and spread mostly south toward Brooklyn.




Page 12                     The Federal Emergency Management Agency’s Individual and Family Grant Program
                                            Management at the World Trade Center Disaster
                                                        Appendix B
                                                        Associated Press Article




                                                        Page 2 of 2

     Investigators have discovered numerous cases where people purchased FEMA-covered items,
submitted the receipts to get reimbursement checks and then returned the products to the store, pocketing
the cash. Some receipts even appear to have been forged, Gair said.
     Home visits have turned up residents who applied for air-conditioner reimbursements living in buildings
with central air where the windows do not even open. Other times, applicants who received checks for hundreds
of dollars’ worth of reimbursed purchases could not produce the items when investigators visited their homes;
stores have reported unusual numbers of people returning air conditioners, vacuums and air puriﬁers.
     Local district attorneys say no applicants have been charged in connection with the FEMA program, in part
because it may be difﬁcult to prove that someone taking advantage of the system is breaking any laws.
    The city Department of Consumer Affairs is also investigating but is concentrating on the wider
scams run by people who posed as FEMA employees to sell air quality products at inﬂated prices. That
would be an illegal trade practice.




          The Federal Emergency Management Agency’s Individual and Family Grant Program               Page 13
                          Management at the World Trade Center Disaster
Appendix C
Purpose, Scope, and Methodology



 Purpose, Scope, and Methodology

                     This audit’s objective was to determine whether actions by FEMA and the State
                     of New York contributed to reported fraud and abuse in the IFG program after the
                     WTC disaster. We interviewed FEMA and state IFG program ofﬁcials in New
                     York City and Albany who implemented the program under the WTC disaster
                     declaration. Also, we interviewed members of four New York City advocacy
                     groups who were concerned about the assistance provided to their constituents.
                     Finally, we reviewed the IFG program requirements contained in the Code of
                     Federal Regulations and pertinent records maintained by FEMA program ofﬁcials.

                     The OIG performed the audit between April 2003 and July 2003 under the
                     authority of the Inspector General Act of 1978, as amended. We complied with
                     government auditing standards, except that we did not, as required by those
                     standards, validate the accuracy of data provided by FEMA on samples of
                     applications tested for eligibility or perform a comprehensive evaluation of the
                     IFG program’s internal controls, because the scope of the audit was limited to
                     work necessary to answer the questions posed by Representatives Maloney and
                     Serrano.

                     Throughout the audit, OIG worked closely with FEMA and state IFG program
                     ofﬁcials. The cooperation and courtesies extended to the audit team are
                     appreciated. The principal OIG points of contact for the audit are Assistant
                     Inspector General for Audits, J. Richard Berman, at (202) 254-4100, and Dennis
                     White, Director, Emergency Preparedness and Response at (202) 254-4157.
                     Major OIG contributors to the project are identiﬁed in Appendix G.




Page 14               The Federal Emergency Management Agency’s Individual and Family Grant Program
                                      Management at the World Trade Center Disaster
                                                   Appendix D
                                                   Recommendation



Recommendation
                  The OIG recommends that the Director, Recovery Division, Emergency
                  Preparedness and Response Directorate, when faced with a similar situation in the
                  future, require the state to implement a procedure to randomly select individual
                  applicants on a continuous basis, and take whatever action is appropriate to verify
                  their eligibility.




     The Federal Emergency Management Agency’s Individual and Family Grant Program            Page 15
                     Management at the World Trade Center Disaster
Appendix E
Management Comments




Page 16               The Federal Emergency Management Agency’s Individual and Family Grant Program
                                      Management at the World Trade Center Disaster
                                              Appendix E
                                              Management Comments




The Federal Emergency Management Agency’s Individual and Family Grant Program   Page 17

                Management at the World Trade Center Disaster

Appendix E
Management Comments




Page 18               The Federal Emergency Management Agency’s Individual and Family Grant Program
                                      Management at the World Trade Center Disaster
                                              Appendix E
                                              Management Comments




The Federal Emergency Management Agency’s Individual and Family Grant Program   Page 19

                Management at the World Trade Center Disaster

Appendix E
Management Comments




Page 20               The Federal Emergency Management Agency’s Individual and Family Grant Program
                                      Management at the World Trade Center Disaster
                                    Appendix E
                                    Management Comments




The Federal Emergency Management Agency’s Individual and Family Grant Program   Page 21

                Management at the World Trade Center Disaster

Appendix E
Management Comments




Page 22               The Federal Emergency Management Agency’s Individual and Family Grant Program
                                      Management at the World Trade Center Disaster
                                              Appendix E
                                              Management Comments




The Federal Emergency Management Agency’s Individual and Family Grant Program   Page 23

                Management at the World Trade Center Disaster

Appendix E
Management Comments




Page 24               The Federal Emergency Management Agency’s Individual and Family Grant Program
                                      Management at the World Trade Center Disaster
                                              Appendix E
                                              Management Comments




The Federal Emergency Management Agency’s Individual and Family Grant Program   Page 25

                Management at the World Trade Center Disaster

Appendix E
Management Comments




Page 26               The Federal Emergency Management Agency’s Individual and Family Grant Program
                                      Management at the World Trade Center Disaster
                                                        Appendix F
                                                        OIG Analysis of Management’s Comments



                      In response to the draft report, Emergency Preparedness and Response (EP&R)
                      concurred with the recommendation and agreed that the kinds of special measures
                      implemented in the IFG program at WTC signiﬁcantly increase the risk of abuse.
                      EP&R stated that its actions were often in direct response to Congressional
                      requests to make the programs more accessible. For example, EP&R stated that
                      the New York congressional delegation strongly urged that the SBA process
                      be avoided to expedite program delivery. EP&R also provided additional
                      justiﬁcation and information regarding the decisions discussed in the report.

                      After reviewing EP&R’s comments, the OIG revised the report to make certain
                      technical corrections and more fully explain the circumstances and relationship
                      between management controls, deceptive advertising, and program abuse.
                      Ultimately, however, it is impossible to quantify the adverse effect that the
                      various conditions, e.g., vendors advertising and relaxation of controls, had on the
                      problems that existed under the program.

                      The OIG agrees that deceptive advertising by vendors clearly contributed to
                      program improprieties. Further, each relaxation of FEMA program controls, taken
                      separately, may have been prudent under the circumstances. However, relaxing
                      all three control mechanisms left the program vulnerable when the deceptive
                      advertising began. Vendors were encouraging all residents to apply for air quality
                      items regardless of need, and FEMA and the state were awarding and disbursing
                      funds with limited upfront veriﬁcations of eligibility and need. Had FEMA
                      and the state maintained regular program controls or implemented alternative
                      measures to verify applicant eligibility, the adverse affect of the vendors deceptive
                      advertising could have been mitigated.

                      EP&R also took exception to the OIG’s conclusion that the reported
                      programmatic abuse estimate of 90 percent was high, and requested that the entire
                      discussion of that estimate be deleted from the report. However, the estimate of
                      90 percent abuse was at the very heart of the congressional request for this audit
                      and, therefore, the OIG believes its inclusion in the report is necessary.

We consider the recommendation closed.




         The Federal Emergency Management Agency’s Individual and Family Grant Program             Page 27
                         Management at the World Trade Center Disaster
Appendix G
Major Contributors to this Report



                      George Peoples, Audit Manager, Atlanta Field Ofﬁce
                      Sharon Thompson, Auditor, Atlanta Field Ofﬁce
                      Gary Barard, Director, Atlanta Field Ofﬁce
                      Dennis White, Director, Emergency Preparedness and Response Division




Page 28                 The Federal Emergency Management Agency’s Individual and Family Grant Program
                                        Management at the World Trade Center Disaster
                                              Appendix H
                                              Report Distribution



             Department of Homeland Security
             Secretary
             Deputy Secretary
             Chief of Staff
             General Counsel
             Under Secretary for Management
             Under Secretary, Emergency Preparedness and Response Directorate
             Director, EP&R Recovery Division
             DHS OIG Liaison

             Ofﬁce of Management and Budget

             Homeland Security Branch Chief
             DHS OIG Budget Examiner

             Congress

             The Honorable Carolyn B. Maloney, Member of Congress
             The Honorable Jose Serrano, Member of Congress
             Congressional Oversight and Appropriations Committees, as appropriate




The Federal Emergency Management Agency’s Individual and Family Grant Program        Page 29
                Management at the World Trade Center Disaster
Page 30   The Federal Emergency Management Agency’s Individual and Family Grant Program
                          Management at the World Trade Center Disaster
The Federal Emergency Management Agency’s Individual and Family Grant Program   Page 31
                Management at the World Trade Center Disaster
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
